No. 19-392
INTHE

~upreme ~ourt of tbe fflniteb ~tate~
MARTIN A. ARMSTRONG,

v.

Petitioner,

SECURITIES AND EXCHANGE COMMISSION, UNITED STATES COMMODITY FUTURES
TRADING COMMISSION, TANCRED SCHIAVONI, IN HIS CAPACITY AS TEMPORARY
RECEIVER, AND THE UNITED STATES OF AMERICA,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
CERTIFICATE OF COMPLIANCE

AB required by Supreme Court Rule 33.l(h), I, Jonathan D. Hacker, a member
of the bar of this Court, certify on this 3rd day of February, 2020, that the·Brief in
Opposition of Temporary Receiver Tancred Schiavoni in the above-captioned case
contains 6,139 words, excluding the parts of the brief that are exempted by Supreme
Court Rule 33.l(d).

